6*\
No.

-i

if

V9

I

Ji.

AD NO 516688

Supreme Court, U.S.
FiLED

JUL 2 1 2021
V-03444-45/04/1OG-1 ON
OFFICE OF THE CL ERK

IN THE
SUPREME COURT OF THE UNITED STATES

PATRICK DISANTO

— PETITIONER

(Your Name)
vs.

ALEXANDRA PEREZ HALPER
F/K/A ALEXANDRA PEREZ CID F/K/A
ALEXANDRA DISANTO

— RESPONDENT(S)

ON PETITION FOR A WRIT OF

TO

NEW YORK STATE APPELLATE DIVISION THIRD JUDICIAL DEPARTMENT

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF jfcfM

PATRICK DISANTO

(Your Name)
8847 PENROSE LANE #207

(Address)
LENEXA KS 66219

(City, State, Zip Code)
(913) 309-3423

(Phone Number)

\

QUESTION(S) PRESENTED
I. DOES THE JUDICIAL HEARING OFFICER POSSESS THE ABILITY TO VIEW THE COMPLICATED CASE FROM A NON BIASED PERSPECTIVE,
WITHOUT EXPRESSING HIS OWN MISOGYNY AND MISANDRY IN RULING, (1) IN NOT HAVING THE ABILITY TO RULE ABOUT A HOUSEHOLD THAT
DOES NOT ADHERE TO TRADITIONAL ROLES OR GENDER ROLES IN PARENTING (2) IN ASSUMING SUBJECT MATTER JURISDICTION WHERE
THERE WAS NO ORDER OF REFERENCE FROM A FAMILY COURT JUDGE NOR THE CONSENT OF THE PARTIES, (3) BY CONFERRING ONGOING
JURISDICTION ON ITSELF?
II. DID THE COURT ERR IN DETERMINING THERE WAS A CHANGE OF CIRCUMSTANCE SUFFICIENT TO WARRANT A BEST INTEREST HEARING?
WHILE IGNORING THE CONFESSIONS OF WITNESSES TO THE ABUSE AND MOLESTING OF A DISABLED PERSON.
III. DID THE COURT ERR IN NOT INVESTIGATING THE CHILD ABUSE AND ALLEGED SEXUAL ABUSE OF THE CHILDREN BY ROBERT HALPER
(RICH HALPER, MR. ACE) (1) DID THE COURT ERR WHEN IT RULED THAT SUPERVISED THERAPEUTIC VISITATION WAS IN THE BEST INTERESTS
OF THE CHILDREN?
IV. DID THE JUDICIAL HEARING OFFICER ADDRESS THAT ATTORNEY JAY KAPLAN ILLEGALLY REPRESENTED ALEXANDRA PEREZ HALPER
F/K/A ALEXANDRA PEREZ CID WHILE REPRESENTING THE APPELLANTS LONGTIME PARTNER KATE WETHERBY?
DID THE JUDICIAL HEARING OFFICER ADDRESS THE APPELLANTS RECENT HEAD INJURY, OR HAVE IN PLACE A MECHANISM TO INCLUDE THE
CHILD - DISABLED PARENT RELATIONSHIP?
V. DID THE JUDICIAL HEARING OFFICER NEGLECT TO ADDRESS THE DISABILITY OF THE APPELLANT AND THE LACK OF ADVOCACY PROVIDED
FOR THE APPELLANT WHO SUFFERED NEUROLOGICAL DAMAGE?
VI. DID THE JUDICIAL HEARING OFFICER REFUSE TO ACKNOWLEDGE DISCREPANCIES IN TRANSCRIPTS, MISSING EVIDENCE, THE PERJURY
AND DOMESTIC VIOLENCE OF ALEXANDRA PEREZ HALPER F/K/A ALEXANDRA PEREZ CID AND HER WITNESSES?

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

State of NY Supreme Court, Appellate Division Third Judicial Department denial: 2021
516688
FAMILY COURT OF THE STATE OF NEW YORK ULSTER COUNTY: 2012
V3444-04/11, V3445-04/11 FILE 18032
Family Offense Proceeding: 2010
18032 DOC 0-01864-10

RELATED CASES

FAMILY COURT OF THE STATE OF NEW YORK: PART D
V-034444-45/04/1OG-1 ON: 2013
18032
IN THE CIRCUIT COURT OF THE TWELFTH JUDICIAL CURCUIT MANATEE COUNTY,
STATE OF FLORIDA: 2013-2017
2013 CF 2776
IN THE CIRCUIT COURT OF THE FIRST JUDICIAL CIRCUIT IN AND FOR ESCAMBIA COUNTY FLORIDA: 2018-18
16-1768 CF DIVISION A
SUPREME COURT OF THE STATE OF NEW YORK COUNTY OF ULSTER. 2015-2018
2017-1732
FAMILY COURT OF THE STATE OF NEW YORK COUNTY OF ULSTER PART D: 2013
V-03444-45/04/10G-10N
STATE OF NEW YORK SUPREME COURT APPELLATE DIVISION THIRD DEPARTMENT 2013
AD NO 516688
SUPREME COURT STATE OF NEW YORK COUNTY OF ULSTER (SHERIFS OFFICE) 2013-18
28847-2008
SUPREME COURT OF THE STATE OF NEW YORK COUNTY OF ULSTER: 2013
2013-2997
STATE OF NEW YORK SUPREME COURT ULSTER COUNTY: (John McGovem/County attorney) 2018
17-1732/15731-1
FAMILY COURT OF THE STATE OF NEW YORK ULSTER COUNTY 2018
V-3444-04-10GHIJK, V-3445-04-10GHIJK, V-3444-04/IILM, V-3445-04/IILM, V-3444-04/IIN, V-3445-04IIN:
SUPREME COURT OF THE STATE OF NEW YORK COUNTY OF ULSTER. (Joshua N. Kopolovitz second conflict of interest) 2017
2013-2997
FAMILY COURT OF ULSTER COUNTY: 2003
18032

TABLE OF CONTENTS
1

OPINIONS BELOW
JURISDICTION

4

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

8

STATEMENT OF THE CASE

10/11

REASONS FOR GRANTING THE WRIT

12

CONCLUSION

34

INDEX TO APPENDICES
Original exhibits Lawrence R. Shelton ESQ, 261 fair street Kingston NY submitted to Ulster County Family Court

APPENDIX A
exhibits 0-44

APPENDIX B
case introduction: Ruth Jacob

APPENDIX C
67,236 signatures signed petition: case review and policy change

APPENDIX D
original data CD from family court 2013

APPENDIX E
original answering machine data CD from family court 2013

APPENDIX F
medical reports and court evaluations of Plaintiff

Rue v Carpenter, 69 AD3d 1238,1239 [20101
Bronson v Bronson, 61 AD3d 1205).
TABLE OF AUTHORITIES CITED
Carnegie v. Carnegie, 83 N.Y.S. 2d 832[1948]
Carrera v. Dime Contractors, 29A.D.3d 506, 815N.YS.2d 139[2nd Dept.2006]).
McCormack v. McCormack, 174 A.D.2d 612, 613, 571 N.Y.S.2d 498 [2nd Dept. 1991)
Matter of
. v. Suleymanova, 289 A.D.2d 404,404, 734 N.Y.S.2d 881 [2nd Dept. 2001];
Edwards v
D3d 530, 531 [2nd Dept 2012]
Matter of Heather J, 244 A.D.2d 762, 763, 666 N.Y.S.2d 213 [3rd Dept.1997]
Litman, Asche, Lupkin & Gioiella v Arashi, 192 A.D.2d 403, 596 N.Y.S.2d 371 [1st DepL 1993])
Batista v. Delbaum, 234 A.D.2d 45, 650 N.Y.S.2d 219 [1st Dept. 1996]
Auriemmo v. Curran, 87 A.D.3d 1090 [2nd Dept, 2011]
Fernald v. Vinci, 302 A D.2d 354, 754 N.YS.2d 668 [2nd Dept. 2003]
Allison v. Allison, 28 A.D.3d 406, 813 N.Y.S.2d 161 [2nd Dept 2003]
Stewart v. Moslev, 85 A.D.3d 931, 925 N.Y.S.2d 594 [2nd Dept. 2011]
Corey v. Bowman, 70 A.D.3d 1323, 893 N.Y.S.2d 775 [4th Dept. 2010]
G. Rama Constr. Enters, v. 80-82 Guernsey St, 43 A.D. 3d 863, 841 N.Y.S.2d 669 [2nd Dept. 2007]).
Eschbach v. Eschbach, 56 N.Y.2d 167, 436 N.E 2d 1260 [New York 1982]
Friederwitzerv. Friederwitzer, 55 N.Y.2d 89, 93-95,447 N.Y.S.2d 893 [New York 1982)
Matter of Martin v Mills (94 AD 3d 1364,1364,1367 [2012]
Ortiz v Winig, 82 A.D.3d 1520, 920 N.Y.S.2d 441 (3rd Dept 2011)
Ralph M. V. Nancy M., 280 A.D.2d 995, 721 N.Y.S.2d 192 (4th Dept. 2001)
Mongiardo v Mongiardo, 232 AD2d 741, 649 N.Y.S.2d 45 [3rd Dept 1996]
Saggesev, Steinmetz, 83A.D.3d 1144,1145, 921 N.Y.S.2d 360 [3rd Dept. 2011]
Gadomski v. Gadomski, 256 A.D.2d 675, 677, 681 N.Y.S.2d 374 [3rd Dept. 1988]
Posporelis v. Posporelis, 41 A.D.3d 986, 991 838 N.Y.S.2d 681 [3rd Dept 2007]
Troxel v Granville, 530 US 57,120 S Ct2054 [2000]; Ortiz v Winig, supra at 1520
Ortiz v Winig, supra at 1520
Matter of Frierson v Goldston, 9 A.D.3d 612,614, 779 N.Y.S.2d 670 [3rd Dept 2004]
Robert TT. V. Carol UU., 300A.D.2d 920, 753N.Y.S.2d 180 [3rd Dept. 2002]
Matter of Nicole W, 296 A.D.2d 608, 611, 746 N.Y.S.2d 53 [3rdDept. 2002]

PAGE NUMBER

STATUTES AND RULES
STATUTES
1.7: Conflict of Interest Current Clients. (ABA 2009)
Family Court Act §165 (McKinney’s 2013)
Civil Procedure Law and Rules §4001 (MicKinney’s 2013)
Civil Procedure Law and Rules §4201 (MicKinney’s 2013)
Civil Procedure Law and Rules §4301 (MicKinney's 2013)
Civil Procedure Law and Rules §4317 (MicKinney’s 2013)
apa.org (2020) Post-traumatic amnesia (PTA) American Psychological Association.
Social Role Theory, University of Kansas (APA, 2020)
TABLE OF REFERENCES
Agran, Martin. Caryl Blanchard, Michael Wehmeyer, Carolyn Hughes. (2002) Increasing the Problem-Solving Skills of Students with Developmental
Disabilities in
General Education. Remedial and Special Education
apa.org (2020) Post-traumatic amnesia (PTA) is a state of confusion that occurs immediately following a traumatic brain injury (TBI) in which the injured
person is disoriented and unable to remember events that occur after the injury.... PTA may refer to only anterograde forms, or to both retrograde and
anterograde forms. American Psychological Association. y
Erikson, Erik H/denti^a/jd the Life Cycle, 1980, W.W. Norton & Company. Reprinted from 1959, International Universities Press. Print.
Koolhaas, J. M., Kortec, S. M., DeBoer, S. F., Van DerVegt, B. J., Van Reenen, V., Hopster, H., etal. (1999). Coping styles in animals: Current status in
behavior and stress physiology. Neuroscience and Biobehavioral Reviews, 23, 925-935. This is a comprehensive review of behavioral and physiological
responses to stressors across a wide array of species. The authors consider the validity of assuming two coping styles in animals, proactive and
reactive strategies. These coping strategies are observed in both laboratory and farm animals and have predictive potential for the identification of
disease susceptibility.
Sapolsky, R. M. (1998). Why zebras don’t get ulcers: An updated guide to stress, stress-related diseases, and coping. New York: Freeman. This book is
a "must read* for anyone interested in the stress response. Sapolsk/s expertise as a leading neuroscientist assures an informed coverage of the most
influential studies in the stress literature. In addition to his expertise and knowledge, Sapolsky uses the perfect blend of wit, historical cases, personal
insight, popular culture, and human interest stories to make this read more like a novel than a scientific book. Topics such as the fundamentals of the
stress response, stress-related diseases, stress and memory, stress and depression, and managing stress are among the many covered in the book.
Swanson, Anna. (2015) The U.S. court system is criminally unjusL Washington Post.

IN THE
SUPREME COURT OF THE UNITED STATES

Petitioner respectfully prays that a writ of'.'

issue to review the judgment below.

OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States courUen appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for^iublication but is not yet reported; or,
[ ] is unpublished.
/
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported
; or,
[ ] has beer/designated for publication but is not yet reported; or,
[ ] is unpublished.
For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix Ji____ to the petition and is
-^
reported at^fi^
^ ^----- ; or,
[ ] has been designated for publication but is not yet reported; or,
p' Ms unpublished.

^

cim

The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________ /
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing wa&4enied by the United States Court of
Appeals on the following date: /_________
, and a copy of the
order denying rehearing appeals at Appendix
[ ] An extension of time to file/ihe petition for a writ of ^ f* P
to and including _
(date) on
in Application No.

was granted
_______(date)

The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix 2______

JUNE 2021

'[Nj^A^timely petition for rehearing was thereafter denied on the following date:
JUNE 2021_______________
, and a copy of the order denying rehearing
appears at Appendix 1
[ ] An extension of time to file the petition for a writ of r
(date) on
to and including
A
Application No.

’ was granted
. (date) in

The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATUTES
1.7: Conflict of Interest Current Clients. (ABA 2009)
Family Court Act §165 (McKinney’s 2013)
Civil Procedure Law and Rules §4001 (MicKinney's 2013)
Civil Procedure Law and Rules §4201 (MicKinney's 2013)
Civil Procedure Law and Rules §4301 (MicKinney's 2013)
Civil Procedure Law and Rules §4317 (MicKinney’s 2013)
apa.org (2020) Post-traumatic amnesia (PTA) American Psychological Association.
Social Role Theory, University of Kansas (APA, 2020)

CASES
Rue v Carpenter, 69 AD3d 1238,1239 (2010)
Bronson v Bronson, 61 AD3d 1205).
Carnegie v. Carnegie, 83 N.Y.S. 2d 832(1948]
Carrero v. Dime Contractors, 29A.D.3d 506, 815N.Y.S.2d 139(2nd Dept.2006]).
McCormack v. McCormack, 174 A.D.2d 612, 613, 571 N.Y.S.2d 498 (2nd Dept. 1991]
Matter of Eagle Ins. Co. v. Suleymanova, 289 A.D.2d 404, 404, 734 N.Y.S.2d 881 [2nd Dept. 2001];
Edwards v Wells, 97 AD3d 530,531 [2nd Dept 2012]
Matter of Heather J, 244 A.D.2d 762, 763, 666 N.Y.S.2d213 [3rd Dept.1997]
Litman, Asche, Lupkin & Gioiella v Arashi, 192A.D.2d403,596 N.Y.S.2d371 [1st Dept 1993])
Batista v. Delbaum, 234 A.D.2d 45, 650 N.Y.S.2d 219 [1st Dept. 1996]
Auriemmo v. Curran, 87 A.D.3d 1090 [2nd Dept., 2011]
Femald v. Vinci, 302 A.D.2d 354, 754 N.Y.S.2d 668 [2nd Dept. 2003]
Allison v. Allison, 28 A.D.3d 406, 813 N.Y.S.2d 161 [2nd Dept. 2003]
Stewart v. Moslev, 85 A.D.3d 931, 925 N.Y.S.2d 594 [2nd Dept. 2011]
Corey v. Bowman, 70 A.D.3d 1323, 893 N.Y.S 2d 775 [4th Dept. 2010]
G. Rama Constr. Enters, v. 80-82 Guernsey St., 43 A.D. 3d 863, 841 N.Y.S 2d 669 (2nd Dept. 2007]).
Eschbach v. Eschbach, 56 N.Y.2d 167, 436 N.E.2d 1260 [New York 1982]
Friederwitzer v. Friederwitzer, 55 N.Y.2d 89, 93-95, 447 N.Y.S.2d 893 [New York 1982)
Matter of Martin v Mills (94 AD3d 1364,1364,1367 [2012]
Ortiz v Winig, 82 A.D 3d 1520, 920 N.Y.S.2d 441 (3rd Dept 2011)
Ralph M. V. Nancy M., 280 A.D.2d 995,721 N.Y.S.2d 192 (4th Dept. 2001)
Mongiardo v Mongiardo, 232 AD2d 741, 649 N.Y.S.2d 45 [3rd Dept 1996]
Saggese v, Steinmetz, 83 A.D.3d 1144, 1145,921 N.Y.S.2d 360 [3rd Dept. 2011]
Gadomski v. Gadomski, 256 A.D 2d 675, 677,681 N.Y.S.2d 374 [3rd Dept. 19881
Posporelis v. Posporelis, 41 A.D.3d 986, 991 838 N.Y.S.2d 681 [3rd Dept. 2007]
Troxel v Granville, 530 US 57,120 S Ct 2054 [2000]; Ortiz v Winig, supra at 1520
Ortiz v Winig, supra at 1520
Matter of Frierson v Goldston, 9 A.D.3d 612, 614, 779 N.Y.S.2d 670 (3rd Dept. 2004]
Robert TT. V. Carol UU., 300A.D.2d 920,753 N.Y.S. 2d 180 [3rd Dept 2002]
Matter of Nicole W, 296 A_D.2d 608, 611, 746 N.Y.S.2d 53 [3rdDept 2002]

STATEMENT OF THE CASE
There are five types of abuse, according to the United States Department of Justice.
The U S. DOJ "defines domestic violence as a pattern of abusive behavior in any relationship that is used by one partner to gain or maintain
power and control over another intimate partner."
Physical Abuse: Hitting, slapping, shoving, grabbing, pinching, biting, hair pulling, etc are types of physical abuse. This type of abuse also
includes denying a partner medical care or forcing alcohol and/or drug use upon him or her.
Sexual Abuse: Coercing or attempting to coerce any sexual contact or behavior without consent. Sexual abuse includes, but is certainly not
limited to, marital rape, attacks on sexual parts of the body, forcing sex after physical violence has occurred, or treating one in a sexually
demeaning manner.
Emotional Abuse: Undermining an individual's sense of self-worth and/or self-esteem is abusive. This may include, but is not limited to constant
criticism, diminishing one's abilities, name-calling, or damaging one's relationship with his or her children.
Economic Abuse: Is defined as making or attempting to make an individual financially dependent by maintaining total control over financial
resources, withholding one's access to money, or forbidding one’s attendance at school or employment
Psychological Abuse: Elements of psychological abuse include - but are not limited to - causing fear by intimidation; threatening physical harm
to self, partner, children, or partner's family or friends; destruction of pets and property; and forcing isolation from family, friends, or school
and/or work.
apa.org (2020) Post-traumatic amnesia (PTA) is a state of confusion that occurs immediately following a traumatic brain injury (TBI) in which
the injured person is disoriented and unable to remember events that occur after the injury.... PTA may refer to only anterograde forms, or to
both retrograde and anterograde forms. American Psychological Association.
The attorney for Alexandra Perez Halper t/k/a Alexandra Perez Cid, the ex wife of the Plaintiff was Attorney Jay Kaplan, Woodstock NY who
was hired without Plaintiff's consent after the Plaintiff obtained a waiver for representation with Attorney Laura Schutman Kingston NY/Sarasota
FI. who was chosen as representation by Alexandra Perez Halper f/k/a Alexandra Perez Cid and was then secured by Plaintiff to mediate the
final divorce and custody arrangements.
At the time attorney Jay Kaplan represented Plaintiff's longtime partner Kate Wetherby Rondout Creek NY and Palm Beach FL., when
Alexandra Perez Halper t/k/a Alexandra Perez Cid hired the Attorney without the consent of the Plaintiff This is in direct violation of law as it is
a conflict of interest. This fact was brought to the attention of Judge Christopher Cahill by Attorney Michael F. Friedman, and to JHO Daniel K.
Lalor by Attorney Lawrence R. Shelton as well as the Ulster County DA. This conflict of interest was never addressed (exhibit 8, exhibit 25,
exhibit 28, exhibit 33).
The Constitution states only one command twee. The Fifth Amendment says to the federal government that no one shall be "deprived of life,
liberty or property without due process of law." The Fourteenth Amendment, ratified in 1868, uses the same eleven words, called the Due
Process Clause, to describe a legal obligation of all states. These words have as their central promise an assurance that all levels of American
government must operate within the law ("legality") and provide fair procedures.
The Plaintiff diligently raised two minor children to understand the importance of being thoughtful in a global perspective, commented on by
many of the children’s teachers over the 13 years the Plaintiff was the primary custodian of the children. The Plaintiff encouraged the healthy
love and respect of Alexandra Perez Halper f/k/a Alexandra Perez Cid, the children’s mother. This is evident in their desire to spend time with
their mom. Had the Plaintiff participated in any of the behaviours he has been misrepresented to have participated in the children would be
much less adjusted than the 7 therapists observed. Again evidenced in footage obtained while the camera was rolling on the film projects
Plaintiff participated in. This was the first line of evidence submitted in both the court JHO Daniel K. Lalor post 2011 head injury.
The ninth commandment: Christianity teaches that this commandment "forbids misrepresenting the truth in our relations with others*
(Catechism of the Catholic Church, 2464). The children’s parochial education was interrupted by Alexandra Perez Halper f/k/a Alexandra Perez
Cid and her boyfriend Robert Halper (Rich Halper, Mr. Ace) numerous times. This causing the Plaintiff to enter a motion to direct Alexandra
Perez Halper f/k/a Alexandra Perez Cid to participate in the agreed upon lifestyle of the children prior to the relationship, with boyfriend Robert
Halper (Rich Halper, Mr. Ace) Who has raised his own children with no interruption in his own belief of Judaism.

The dismissal of family court ruling by JHO Keneth Laylor, A.D. NO. 516688 on the grounds of judicial bias, conflict of interest, misogyny,
misandry, missing evidence, child abuse and alleged sexual abuse, inaccurate transcripts, domestic violence, anti-religious (Christian
minimalism) motivations, violation of civil liberties, intellectual property theft, art theft, stalking/slander/liable, abuse of process, malicious
prosecution, and frivolous law. With the dismissal of this judgement healing may begin between the Plaintiff and the children that have been
told the Family Court ruling was based upon fact and evidence, both of which are not true.

STATEMENT OF FACTS
On 10/31/11 Plaintiff presented to the courts petition for modification of another
order in response to V3444-04/11, V 34445-04/11, file 18032. Plaintiff at this time
had recently suffered a concussion later diagnosed as a traumatic brain injury (TBI)
and chronic traumatic encephalopathy CTE, a degenerative brain disease causing
holes in the brain. Unknown to Plaintiff, was that the case recently settled in
Supreme Court was being moved to family court, unknown to the Plaintiff was the
judicial hearing officer was brought out of retirement to preside over the complex
case (exhibits 3 and exhibit 27, and 45).

The second topic Plaintiff presents is the conflict of interest between Attorney Jay
Kaplan and Plaintiff’s long time partner Kate Wetherby. The Judicial Hearing
Officer Daniel K. Lalor retired from Green County service in 2010, took the case in
2011, and had no experience with the case that spanned 2002-2011 almost a decade.
Plaintiff questions his capabilities and motives. The decision appears to be either
misinformed or exceedingly biased in what can only be perceived as an aggressive
ruling (exhibit 25, 33and exhibit 45).

In this case that had been long troubled. The ruling ignores facts, evidence, and
logic as the Judicial Hearing Officer allows important questions raised left
unanswered, did not follow traditional family court protocol, to stabilize the family
at all costs, maintaining and protect the two minor children's established lifestyle
(Matter of Rue v Carpenter, 69 AD3d 1238, 1239 [2010]; see also see Matter of
Bronson v Bronson, 61 AD3d 1205). The JHO quotes prime cases of reference
without ever addressing Plaintiffs ongoing concerns or qualifications. This is a
procedural defect making victims or the already victimized children and Plaintiff
the very mechanism Family Court is to address conservation of the family unit.

16

ARGUMENT I
I. THE JUDICIAL OFFICER ERRED: DOES NOT POSSESS THE ABILITY
TO VIEW THE COMPLICATED CASE FROM AN UNBIASED
PERSPECTIVE, WITHOUT EXPRESSING HIS OWN MISOGYNY AND
MISANDRY (1) IN NOT HAVING THE ABILITY TO RULE ABOUT A
HOUSEHOLD THAT DOES NOT ADHERE TO TRADITIONAL GENDER
ROLES IN PARENTING (2) IN ASSUMING SUBJECT MATTER
JURISDICTION WHERE THERE WAS NO ORDER OF REFERENCE FROM
A FAMILY COURT JUDGE NOR THE CONSENT OF THE PARTIES, (3) BY
CONFERRING ONGOING JURISDICTION ON ITSELF

Alexandra Perez Halper f/k/a Alexandra Perez Cid has again refused to engage in
productive and/or civil communications with the children and has interfered with
all attempts Plaintiff has made to maintain civil and cooperative co-parenting
relations, (exhibit 1, a 10/31/11) This is evidenced by Alexandra Perez Halper £/k/a
Alexandra Perez Cid filing numerous unfounded reports of child neglect and/or
abuse against the Plaintiff and has repeatedly made false and frivolous allegations
to the police regarding the Plaintiff. Alexandra Perez Halper f/k/a Alexandra Perez
Cid initiates police and protective service visits to Plaintiff's home which have
significantly traumatized the children (exhibit 1, b 10/31/11).

Both children have repeatedly told their law guardian, CPS, Deputy Sheriff of the
trauma that they have suffered as a result of Alexandra Perez Halper f/k/a
Alexandra Perez Cid’s false allegations, they have expressed this to an alarming
number of therapists and advocates that have presented it to the Supreme and
Family Courts (exhibit 1, c 10/31/11, and exhibit 4).

The authority of a Judicial Hearing Officer (hear after JHO) derives from an order
of reference by a court (CPLR§4317), and an order of reference is made upon

17

consent of the parties (CPLR§4317), which is a “jurisdictional prerequisite” for a
JHO to hear and determine a case. (Fam. Ct. Act §165).

An order of reference should direct a referee or JHO “to determine an issue, perform
an act, or inquire and report ...” (CPLR§400l). The authority of a JHO is to
determine an issue conferred by section 4301 of the CPLR. The authority of a JHO
is restricted to what the order of reference provides (Carnegie v. Carnegie, 83 N.Y.S.
2d 832[1948]; Carrero o. Dime Contractors, 29A.D.3d 506, 815N.Y.S.2d 139[2nd
Dept.2006]). A JHO who “attempts to determine matters not referred to them by the
order of reference acts beyond and in excess of their jurisdiction” (McCormack v.
McCormack, 174 A.D.2d 612, 613, 571 N.Y.S.2d 498 [2nd Dept. 1991]; Matter of
Eagle Ins. Co. v. Suleymanova, 289 A.D.2d 404, 404, 734 N.Y.S.2d 881 [2nd Dept.
2001]; Edwards v Wells, 97 AD3d 530, 531 [2nd Dept A JHO is a referee with a
special title earned via a previously held judgeship. 1 Under the CPLR, the
authority of a referee or a JHO are identical (CPLR §4301). 2012]; Matter of Heather
J, 244 A.D.2d 762, 763, 666 N.Y.S.2d 213 [3rd Dept.
1997]; Litman, Asche, Lupkin & Gioiella. v Arashi, 192 A.D.2d 403, 596 N.Y.S.2d
371 [1st Dept. 1993]); Batista; v. Delbaum, 234 A.D.2d 45, 650 N.Y.S.2d 219 [1st
Dept. 1996]; Auriemmo v. Curran, 87 A.D.3d 1090 [2nd Dept., 2011]; Fernald
v.Vmci, 302 A.D.2d 354, 754 N.Y.S.2d 668 [2nd Dept. 2003]; Allison v. Allison, 28
A.D.3d 406, 813 N.Y.S.2d 161 [2nd Dept. 2003]; Stewart v. Moslev, 85 A.D.3d
931,925 N.Y.S.2d 594 [2nd Dept. 2011]; Corey v. Bowman, 70 A.D.3d 1323, 893
N.Y.S. 2d 775 [4th Dept. 2010]; G. Rama Constr. Enters, v. 80-82 Guernsey St, 43
A.D. 3d 863, 841 N.Y.S.2d 669 [2nd Dept. 2007]).

There is nothing in the record to indicate that Judge Lalor was lawfully assigned to
this matter (McDonald v Reed, 68 AD3d 1181, 889 N.Y.S.2d 321 (3rd Dept. 2009).
There is no order of reference, there is no consent on the record, and the judgment
of divorce does not contain a stipulation where the parties consented to referring

18

future matters to a JHO. Absent any of these factors, Judge Lalor lacked the
authority to consider the issues the parties set forth concerning custody of thenchildren. Lacking the requisite consent that issues of concern to the parties
be submitted to a JHO, the order issued by Judge Lalor must be reversed (Fernald
v. Vinci, supra).

“If a court lacks subject matter jurisdiction, the parties may not confer it on the
court... and it may not be created by laches or estoppel... More importantly ... when
a court lacks subject matter jurisdiction it may not acquire it by waiver... A
judgment or order issued without subject matter jurisdiction is void, and that defect
may be raised at any time and may not be waived” (internal citations omitted)
(Budget Rent a Car, 230 A.D.2d 253, 260, 657 N.Y.S.2d 721 (2nd Dept., 1997), See
also Burke v Aspland, 56 A.D.3d 1001, 1004, 867 N.Y.S.2d 759 (3rd
Dept. 2008) [“plaintiffs cannot waive or be estopped.from arguing that the court
lacked subject matter jurisdiction. As the court lacked subject matter jurisdiction,
the resulting judgment is void”]. In the case before the court, Judge Lalor directed
that Plaintiffs contact with his children occur in the context of therapeutic visits
and directed that the therapeutic sessions “continue until further order of [the]
Court” (A047). Not only did Judge Lalor “hear and determine” the matter without
the authority to do so, when he ordered that therapeutic sessions continue until
further order of “this Court,” he continued the Court’s jurisdiction without the
authority to do so.

Even had there been an order of reference directing that the Court “hear and
determine” the matter, jurisdiction would have ended when the Court rendered its
decision (Decker v. Canzoneri, 256 A.D. 68, 9 N.Y.S.2d 210 [3rd Dept. 1939]; Smith
v. Smith, 286 A.D. 1060, 144 N.Y.S.2d 859 [3rd Dept 1955]; First Baptist Church of
Far Rockaway, Inc. v Scott, 14 Misc.2d 610, 179 N.Y.S.2d 616 Sup. Ct. Queens
County, 1958]).

19

The JHO expresses the lack of ability to rule about a household that does not
adhere to traditional gender roles in parenting in his order. Even when presented
with the courts record and evidence by Plaintiff's attorney on V3444-04/11,
V3445-04/11 File 18032 10/31/11, the JHO is in err quoting many of the factual
events through the filter of misogyny and misandry, while not understanding both
genders possess the capacity to do all that the other does. The JHO’s error is
evident in the favoring of “avoidance” seemingly with blinders on his perception of a
mothers behavior. The testimony of Alexandra Perez Halper f/k/a Alexandra Perez
Cid is a transcript, filed with obvious hostile intentions that appear to alude the
JHO, in a mockery of justice.

On the record in 10/31/11 “Respondent (Alexandra Perez Halper f/k/a Alexandra
Perez Cid’s) petition, sworn under oath, contains extensive examples of the type of
derogatory remarks that respondent (Alexandra Perez Halper f/k/a Alexandra Perez
Cid) of the type of derogatory remarks that Respondent (Alexandra Perez Halper
f/k/a Alexandra Perez Cid) regularly makes makes about the Petitioner (Plaintiff)
both to the children, to the childrens providers and to members of the community,
including parents of the children’s friends” this continues (exhibit 1 k-p, exhibit 45)
in fact Plaintiff never made such remarks, the remark he made was two fold that
“Alexandra Perez Halper f/k/a Alexandra Perez Cid’s behaviour was an abomination
to motherhood and womanhood”. The JHO further embellishes in his order the
misinformed plagiarized ruling submitted by Plaintiff on this date, while claiming
without evidence the Plaintiff told the children their mother abandoned them.

The court err is so thorough that reading V3444-04/11, V3445-04/11 File 18032
10/31/11 one wonders how this procedural defect was allowed in Ulster County
Family Court, established to help families. The JHO continues to misquote the
transcript including Bard security head Kenneth Cooper whose testimony is

20

impeached, is caught intentionally committing perjury by Bards own registrar Peter
Gadsby “beside Patrick (Plaintiff) being enrolled in six courses, he received a grade
of R, which stands for registration credit”. This was in answer to Mr. Gillians’s
question on cross examination. This judicial err on p7 of the order was refuted by
Plaintiff's testimony, Bard’s own Professor Arthur Burrows and the Bard registrar
Peter Gatsby “...that there had been a program at Bard college where one could
audit a course and later, by paying an extra fee, receive credits for those classes ...”
Arthur Burrows states, he is assisted by the Plaintiff, in producing a curriculum to
join departments, in a frequency study between Bard NY and Ringling College of
Arts in Sarasota FL. (exhibit lb, exhibit 8, exhibit 29, 43, 47, and exhibit 48 p3)

The court overextends itself on p9 of the order when it claims with no evidence
Plaintiff had told the children or anyone that Alexandra Perez Halper f/k/a
Alexandra Perez Cid abandon the children. In fact Plaintiff had maintained that
“mom was working in NYC” and the reason they needed to visit her. Plaintiff made
statements “Alexandra Perez Halper f/k/a Alexandra Perez Cid was “inconsistent
and erratic” and concerned with the psychological and physical capabilities
including she was “heavy handed” to Attorney Dan Gartenstein, Attorney Lawrence
Sheldon, Dr. Emile Pinn, Dr. Robert Housman, Jenny Bates LCSW, Dr. Claude
Schleuderer, and Dr. Ann Mundt.

Each part of the order by the JHO is riddled with inconsistencies, procedural
defect(s), misogyny, misandry, and gender bias according to Social Role Theory: a
social psychological theory that pertains to gender similarities and differences in
social behavior. Its key principle is that similarities and differences arise primarily
from distribution of gender into social roles within society. (2020, UCCER), that
endangered the children as well as Appellant by the JHO’s blatant disregard for
truth. The Plaintiff had endured with his children inconsistencies, disruption,
slander, and libel by the very individuals committing perjury in the JHO’s court.

21

The Plaintiff on numerous occasions provided the mechanism to uncover the truth
which for unknown reasons the JHO chose to ignore or oblivious to. The consistent
parent who nurtured a fond relationship between children and mother Alexandra
Perez Halper f/k/a Alexandra Perez Cid who has undermined and instigated the
very scenario that the JHO directs toward the Plaintiff (exhibit 23 pl7 lines 10-19).
The JHO seems obsessed with “criticizing the father” the (Plaintiff) who provided
consistent care for the children, built the home they lived in, consistently
maintained medical care as well as physical and psychological health.

The statement in the JHO’s order “... hate filled environment created by di Santo”
when no proof has ever been evidenced, instead the court favors the false testimony
of Alexandra Perez Halper f/k/a Alexandra Perez Cid and the theatrics of her
Attorney Jay Kaplan, who’s clients fraudulent resume of work is ignored, along with
her physical and psychological abuse of the children and Plaintiff. All ignored,
Alexandra Perez Halper f/k/a Alexandra Perez Cid, who has not contributed
financially to the children's established lifestyle, though is supported and living a
luxurious lifestyle with her new boyfriend, whom she is expecting a child with.
Alexandra Perez Halper f/k/a Alexandra Perez Cid who on the record expressed
“utter disdain” for the Plaintiff and who has committed excessive perjury in
multiple courts (exhibit 1 L-p and exhibit 21, 43, and exhibit 48).

Despite all of the undermining, manipulation, and abuse, Plaintiff clearly remains
supportive of Alexandra Perez Halper f/k/a Alexandra Perez Cid’s relationship with
her children, for the sake of their children. To which he is underhandedly stabbed in
the back by Alexandra Perez Halper f/k/a Alexandra Perez Cid, her boyfriend, and

the JHO.
The Plaintiff implores this dangerous inappropriate biased ruling in Ulster County
Family Court be dismissed on grounds of procedural defect, gender bias, malicious

22

prosecution, abuse of process, and child endangerment, endanger a person with a
disability (exhibit 3,4 and exhibit 22, exhibit 39, 43, and exhibit 48 pi).

23

ARGUMENT II
II. THE COURT ERRED IN DETERMINING THERE WAS A CHANGE OF
CIRCUMSTANCE SUFFICIENT TO WARRANT A BEST INTEREST
HEARING.
Over the past two decades (2002-2021) Plaintiff has been subjected to the malicious
events provoked by Alexandra Perez Halper f/k/a Alexandra Perez Cid, who has
continued to make frivolous and untrue allegations regarding Plaintiff in the
numerous petitions she has filed with Family Court. Ironically, many of these
petitions allege that the Plaintiff is committing precisely the same conduct that
Alexandra Perez Halper f/k/a Alexandra Perez Cid herself commits, this is evident
in (exhibit 1, h dated 10/31/10). Alexandra Perez Halper f/k/a Alexandra Perez Cid’s
petition in 2010, sworn under oath, contains extensive examples of the derogatory
remarks Alexandra Perez Halper f/k/a Alexandra Perez Cid has made about
Plaintiff, both to the children, the children's providers, parents of the children’s
friends, and others in the community (exhibits 1, L 10/31/10, exhibit 44).

Alexandra Perez Halper f/k/a Alexandra Perez Cid has repeated the types of
comments made in paragraphs “ggg” and “hhh” of her latest petition as of October
31st, 2010. (V 3444-04/11, V 3445-04/11, File 18032, exhibit 44, 45) in numerous
contexts. These types of comments demonstrate Alexandra Perez Halper f/k/a
Alexandra Perez Cid’s utter contempt for the father of her children. A contempt that
she regularly shares with the children. The level of contempt demonstrated by
Alexandra Perez Halper f/k/a Alexandra Perez Cid constitutes a fundamental
parenting deficit and it is contrary to the best interest of the children (exhibit 1, m
10/31/10).

This is in direct conflict with the ruling of the JHO, in fact the findings expose
malicious prosecution and abuse of process which has continued to this day
including the interruption of important Chronic Traumatic Encephalopathy /

24

Traumatic Brain Injury CTE/TBI treatments Plaintiff participates in. In fact,
Alexandra Perez Halper f/k/a Alexandra Perez Cid has regularly misled courts and
officials in seven states NY, NJ, PA, FL, TX, KS, MA as Plaintiff has sought to avoid
any and all contact with Alexandra Perez Halper f/k/a Alexandra Perez Cid
(exhibits 2, 11, 12, exhibit 39,44).

On September 23, 2008, in a conference before Judge Donald A. Williams, the
parties agreed that in any proceeding to modify custody or visitation a change of
circumstances would be measured from December 17, 2007 (A002). In December of
2007, Plaintiff had sole legal custody of the children. Respondent’s visits with the
children was at Plaintiff’s discretion (A051). On March 3, 2010, there is a question
whether Judge Cahil or Judge Williams modified the custodial order when he
granted joint legal custody to the parties (exhibit 39).

Physical custody and visitation were on a “two-week, repeating cycle during which
the children [were to] be with [their mother] six (6) nights and with [their father]
eight (8) nights” for the first week of the cycle (A009). The relationship between the
parties was acrimonious and had been so at least since 2006. The circumstances
that existed when Judge Lalor issued his order on March 13, 2013, reflected the
norm for the parties, not a change in their relationship. This is clear from the
record. For example, Judge Cahill, reported that “Starting in January 2006....the
parties’ relationship deteriorated” (A050). That same acrimony in the parties’
relationship is revealed in respondent’s interview with Dr Ann Mundt, the
psychologist who performed the court-ordered mental health evaluations of the
family.

According to Dr. Mundt, Alexandra Perez Halper f/k/a Alexandra Perez Cid told her
she lost her job due to marital difficulties around 2006 (A026) and that the problems
between herself and Plaintiff had been going on from the time they were married in

25

2008 (A026-027). In actuality the couple had dated since 1996 and married in 1998,
the resume of work reported by Alexandra Perez Halper f/k/a Alexandra Perez Cid
is false as identified by Bloomingdale’s NY, Express Company in Poughkeepsie NY,
Jordan and Bob Mackie Corporation NY, all but two of the references on her resume
one of which is Lifetouch INC Albany NY (Livetouch Portray on the resume) and
the other verified by the Plaintiff himself who financed zo9.com an online jewelry
company and idsanto.com initiated by Alexandra Perez Halper f/k/a Alexandra
Perez Cid. On January 10, 2013, she testified that her relationship with Plaintiff
had been difficult since 2007 when the custody trial ended. She states that Plaintiff
had always been aggressive but became more so, and visitation exchanges were “a
mess ” necessitating police involvement initiated by Alexandra Perez Halper f/k/a
Alexandra Perez Cid herself (exhibit 21, exhibit 1, a-e and exhibit 11 paragraph 4,
exhibit 15, exhibit 17, exhibit 23, p23, line 1-16, A085, and exhibit 39).

When Plaintiff testified on January 17, 2013, he confirmed that difficulties between
the Alexandra Perez Halper f/k/a Alexandra Perez Cid and himself were long
standing. In 2008, in order to resolve their disputes concerning custody of the
children on the holidays, Alexandra Perez Halper f/k/a Alexandra Perez Cid had
required a court order. In 2009, after 4 repeated requests from Plaintiff their
attempt at mediation, 2002-2013 had failed due to the inability of Alexandra Perez
Halper f/k/a Alexandra Perez Cid to compromise (exhibit 6 and exhibit 7, A113-116
and exhibit 39).

In his decision, of March 2013, the JHO acknowledges that the difficulties between
the parties had been going on since 2007 as was revealed by the “testimony of the
witnesses as to the attitude and actions of the parties since December 2007” (A038).

It is well settled that the Plaintiff seeking to modify an order of custody or visitation
must establish that there has been a change of circumstances sufficient for the

§

26

court to consider the best interests of a child (Eschbach v. Eschbach, 56 N.Y.2d 167,
436 N.E.2d 1260 [New York 1982]; Friederwitzer v. Friederwitzer, 55 N.Y.2d 89,
93-95, 447 N.Y.S.2d 893 [New York 1982). It is clear from a review of the record,
that in the case before the court, the relationship between the parties was fraught
with difficulties throughout its history. The problems described by the JHO, rather
than reflecting changed circumstances, described the normative conduct of the
parties. Without evidence of changed circumstances, the Court erred in proceeding
to a best interests hearing (exhibits 4-10, 43, and exhibit 48).

Regarding the incident report at the child’s pediatrician’s office, the JHO states it
was the Plaintiff’s disruptive behavior when it was actually Alexandra Perez
Halper f/k/a Alexandra Perez Cid’s behaviour (V 3444-04/11, V 3445-04/11, File
18032, d, j). Both Plaintiff, Alexandra Perez Halper f/k/a Alexandra Perez Cid, and
witnesses corroborated mom came to the children’s medical appointment during
Plaintiff’s custodial time and caused a scene forcing the receptionist to call the
police (exhibit 23, p23, line 1-16). This disturbance continued, to the next day, again
on the Plaintiff’s custodial time, at the children’s track meet where Alexandra
Perez Halper f/k/a Alexandra Perez Cid argued with the school’s principal and two
school nurses about the child’s participation in the event, embarrassing the children

£

in front of their peers, again Alexandra Perez Halper f/k/a Alexandra Perez Cid
violated Plaintiff’s Orders of Protection at the medical office and the track event,
unable to follow any court order (exhibit 23, p23, line 1-16). The JHO appears to
display the inability to grasp the level of deception and malice towards the Plaintiff
by Alexandra Perez Halper ^k/a Alexandra Perez Cid, including the statement that
Plaintiff was not the biological father. This disruptive behaviour and slander
continued to family friends of the Plaintiff, work associates, including the parents of
the children that he coached and that played with his children, causing irreversible
damage in the children's lifestyle as well as Plaintiff’s (exhibit 1 i-p, exhibit 44 ).

27

The JHO is similarly confused in regards to the child’s medication for asthma.
Plaintiff ensures Alexandra Perez Halper f/k/a Alexandra Perez Cid always had
medication at her home, the child had medication in her backpack, at the school, in
her room, outside the bathroom at home, and in the kitchen. Plaintiff is not asked
about this situation in the transcript at all, Plaintiff is asked about the activities of
the children that he participates in. Yet the misguided JHO, puts excessive
emphasis on the situation of asthma medication without addressing the minor
child’s collapsed lung in the care of Alexandra Perez Halper f/k/a Alexandra Perez
Cid, who took the child to NYC against the recommendations of the pediatrician
and the Plaintiff (exhibit 23 p24).

How is this life threatening incident looked over and all evidence redirected by the
JHO to blame the Plaintiff who’s custodial time it was not, during the incident. This
harangue of the disabled Plaintiff, by the JHO continues with the bi lateral hand
surgery note from Dr. Ristics office, Plaintiff had surgery with palms cut open and
requested Alexandra Perez Halper Pk/a Alexandra Perez Cid pick up the children as

9

he could not drive. This situation was presented as Plaintiff forging Dr. Ristics
signing a paper to excuse him from driving while his hands healed. The letter is
distinctly written by the nurse who wrote the scripts and the medical excuse
caution “no driving” corroborated by Plaintiff’s mother who transported Plaintiff to
and from the surgery. The child photographed their fathers hands for a school
science project on skin healing (exhibit 4b and exhibit 35).

This was challenged by Alexandra Perez Halper f/k/a Alexandra Perez Cid and
Attorney Jay Kaplan as a means of redirection away from the life threatening

9

situation of the child’s collapsed lung. The JHO errs whether allowing the
overlooked redirection from a serious event or un capable of identifying the threat of
a collapsed lung. The child's lung collapsed, obviously Attorney Jay Kaplan is adept
at confusing and redirecting Ulster County Family Court to investigate a signature

9

28

from a nurse or aide, a disabled Plaintiff with surgery wounds on both palms, his
mother and child corroborate the date of the surgery yet Ulster County Family
Court does not investigate Alexandra Perez Halper f/k/a Alexandra Perez Cid’s trip
to NYC to a wedding overnight in Long Island, several hours from her child, who
suffers with a collapsed lung the entire weekend.

Plaintiff had offered to switch weekends with Alexandra Perez Halper f/k/a
Alexandra Perez Cid, Plaintiff is proactive in preventative medication as well
addressing the child’s breathing deficits on record. The child’s lung collapsed...
(Matter of Martin v Mills (94 AD3d 1364, 1364, 1367 [2012]), is not addressed by
the JHO who again has a biased, misogynistic and misandrist, unreasonable
response to Plaintiff's evidence, witnesses, and trauma.

Never acknowledging or addressing the collapsed lung, the destroyed cell phones,
the physical and psychological trauma the children and Plaintiff had already
suffered at the vanity of Alexandra Perez Halper f/k/a Alexandra Perez Cid’s poor

P

judgement in V 3444-04/11, V3445-04/11 File 18032 f (exhibit 1, f and exhibit 26,
45), states when Plaintiff tried to speak of the issues of corporal punishment not
being part of the children’s lifestyle received no acknowledgement or satisfaction in
the alleged child abuse, property destruction, grabbing, choking, and struck by
Alexandra Perez Halper f/k/a Alexandra Perez Cid’s boyfriend Robert Halper, Rich
Halper, Mr. Ace. in her own words “ ... I can not control his (Robert Hapler, Rich
Halper, Mr. Ace) behaviour ...” (exhibit 23, pl5, line 24 and 25, pl6 1-24 )

The JHO participates in the long standing misogynist and arcane biased misandrist
point of reference, that men are not nurturers or the possibility that they could be
better suited to nurture in some situations. If the Plaintiff has any actual
fundamental evidence of anything, it is the ability to nurture, the ability society,
education, and women have taught him. Plaintiff is a responsible, helpful, modern,

29

educated, present parent, who is traumatized and concerned for the need to
eviscerate each attack on his abilities and intentions. The JHO errs in not requiring
or addressing the same of Alexandra Perez Halper f/k/a Alexandra Perez Cid’s
documented intentions, behaviours, and malicious undermining of the Plaintiff, the
father of her children who she has documented contempt for. V 3444-04/11,
V3445-04/11 File 18032, m (exhibit 1, m and exhibit 11 paragraph 4, exhibit 23 1-9,
exhibit 44).

“... Witnesses Andrew Smith, Susan Holland, and Paige Van Nostrand, testified
credibly that they had a romantic relation with di Santo ...” according to the court,
because the Plaintiff did not desire intimate relationships with the friends of
Alexandra Perez Halper f/k/a Alexandra Perez Cid or with Alexandra Perez Halper
f/k/a Alexandra Perez Cid herself, Plaintiff is re victimized by the JHO who is
unconcerned with the facts or supporting evidence from professionals Mark Gasper,
Hannah Slone-Barton, or Arthur Burrows, all who stay in the home and/or adjacent
building for extended amounts of time with the children and Plaintiff (exhibit 43).

Alexandra Perez Halper f/k/a Alexandra Perez Cid’s witnesses are not a valid record
as uncovered in cross examination numerous times by Attorney Kenneth Drew
Gillian, due to their heated blood for the Plaintiff, romantic inclinations, and
“spurned lovers" syndrome. Plaintiff's documented head injury is diagnosed as a
brain injury, Dr. Ann Mundt court psychologist, JHO, and prosecution observed and
noted Plaintiff’s confusion throughout the proceedings (exhibit lc). The Plaintiff
had stated he was uninterested in their advances, all have been spoken to by second
parties. Professor Arthur Burrows directly spoke to Paige VanNorstrand of her
obsession with the Plaintiff and his children. The JHO is uninterested to find out if
the abuse extends to the disabled Plaintiff, the JHO can not produce evidence the
children were not abused by Alexandra Perez Halper f/k/a Alexandra Perez Cid or
her boyfriend Robert Halper (Rich Halper, Mr. Ace). The friends and witnesses of

30

Alexandra Perez Halper f/k/a Alexandra Perez Cid have on the record claimed
intimate relations with the Plaintiff who is disabled and did not desire intimacy,
that they all claim to have had with Plaintiff (exhibit 15).

It is on record the children being “grabbed, choked, and struck by Alexandra Perez
Halper f/k/a Alexandra Perez Cid’s boyfriend Robert Halper (Rich Halper, Mr. Ace)
when Appellant tries to speak to Alexandra Perez Halper f/k/a Alexandra Perez Cid
about this inappropriate conduct she flatly states “ ... I can not control his (Robert
Hapler, Rich Halper, Mr. Ace) behaviour ...” (Exhibit 1 f). The JHO is asking the
disabled injured Appellant to be responsible for not only being a single parent but
the behaviours of those very persons who are creating the “Hateful environment”
instigated by Alexandra Perez Halper f/k/a Alexandra Perez Cid, to quote the JHO
himself. This further uncovers the depth error and inadequacy of the JHO’s ability.

31

ARGUMENT III
III. THE COURT ERRED IN NOT INVESTIGATING CHILD ABUSE AND
ALLEGED SEXUAL ABUSE BY ROBERT HALPER (RICH HALPER, MR.
ACE) (1) WHEN IT RULED THAT SUPERVISED THERAPEUTIC
VISITATION WAS IN THE BEST INTEREST OF THE CHILDREN
In his Decision and Order of March 13, 2013, Judge Lalor determined that
appellant’s visits with his children should be supervised, therapeutic visits. The
therapist, who was to determine the frequency of sessions, was to be selected by the
attorneys for the children. Therapeutic sessions were to begin as soon as the
therapist was selected. They were to continue indefinitely (exhibit 24, A047). The
order did not provide a framework for a therapist to conduct an assessment and
based on her or his professional judgement to determine whether therapy was
called for and, if so, whether therapy should be time-limited or ongoing. In fact the
Plaintiff contacted the therapists, law guardians, and his attorney for 7 months
March 2013-October 2013 following the JHO’s ruling. To this day the Plaintiff has
not heard from any of the therapists (exhibit 24).

Despite the fact that Dr. Mundt, who conducted the court-ordered mental-health
evaluation, did not recommend therapy for either parent, the Court imposed its
judgement that therapy was required. In addition, the Court assumed that a
therapist would agree with its conclusion concerning the duration of therapy.
Finally, the Court did not provide a mechanism for modifying its order beyond its
assumption of ongoing jurisdiction. As such the order is impermissibly open-ended
(Ortiz v Winig, 82 A.D.3d 1520, 920 N.Y.S.2d 441 (3rd Dept 2011). By stating that
the therapeutic sessions:

[s]hall commence immediately upon selection of the therapist by the
attorneys and continue for a minimum period of six months from the first
session [and] thereafter, the sessions shall continue until further order of this

32

Court.... (Id.).

The court is inappropriately conditioning Plaintiff’s right to petition the court on
completion of the counseling sessions (Ralph M. V. Nancy M., 280 A.D.2d 995, 721
N.Y.S.2d 192 (4th Dept. 2001). The Court order is a de facto denial of visitation; and
Family Court does not have the authority to order a party to undergo counseling or
therapy before visitation will be allowed (Mongiardo v Mongiardo, 232 AD2d 741,
649 N.Y.S.2d 45 [3rd Dept 1996]; Saggese v, Steinmetz, 83 A.D.3d 1144, 1145, 921

e

N.Y.S.2d 360 [3rd Dept. 2011]; Gadomski.v. Gadomski, 256 A.D.2d 675, 677, 681
N.Y.S.2d 374 [3rd Dept. 1988]; Posporelis v. Posporelis, 41 A.D.3d 986, 991 838
N.Y.S.2d 681 [3rd Dept. 2007]).

Moreover, the Court order violates Plaintiff’s constitutionally protected liberty
interest in the companionship of his children without ever finding that Plaintiff was
an unfit parent who had in some manner abused or neglected his children or that
other extraordinary circumstances existed (Troxel v Granville, 530 US 57, 120 S Ct
2054 [2000]; Ortiz v Winig, supra at 1520) The Court chose to overlook the fact that
Plaintiff was the children’s primary caretaker for many years and that no evidence
was produced to suggest that the children suffered as a consequence of their father’s
custody. Denying visitation to a noncustodial parent is a “drastic remedy” that is not
appropriate unless there are compelling reasons and there is substantial evidence
that visitation would be detrimental to the children (Matter of Frierson v Goldston,
9 A.D.3d 612, 614, 779 N.Y.S.2d 670 [3rd Dept. 2004]; Robert TT. V. Carol UU., 300
A.D.2d 920, 753 N.Y.S.2d 180 [3rd Dept. 2002]; Matter of Nicole W, 296 A.D.2d 608,
611, 746 N.Y.S.2d 53 [3rdDept. 2002]).

In fact in between January 7-16, 2013 Appellant and Attorney Daniel Gartenstein
were told by Paige Van NorStarnd, friend of Alexandra Perez Halper f/k/a
Alexandra Perez Cid, Appellant’s housekeeping and child caregiver, about the

33

sexual abuse of the children in addition to the child abuse, property destruction,
grabbing, choking, and being struck by Alexandra Perez Halper f/k/a Alexandra
Perez Cid’s boyfriend Robert Halper, Rich Halper, Mr. Ace. in her own words “

I

can not control his (Robert Hapler, Rich Halper, Mr. Ace) behaviour ...” (exhibit 23,
p!5, line 24 and 25, p!6 1-24, exhibit 23b).

One must understand corporal punishment was not part of the children’s lifestyle in
the Plaintiff's household for the first 13 years of the childrens life. The JHO erred

§

in not ordering an investigation or vindication that these claims were untrue.
Plaintiff was stripped of his civil liberties to protect his children from these abuses.
While receiving no acknowledgement or satisfaction in the dangers to his children,
with the Kingston Police Department threatening the Plaintiff with incarceration if
he went near them. This in the presence of Attorney Dan Gartenstein.

When the children's grandparents frustrated with the legal discrepancies and
having no rights to access their grandchildren they had been consistently in contact
since birth, the paternal grandparents contacted the school counselor to wish their
grandchild “Happy Birthday” after numerous attempts to contact the children
through Alexandra Perez Halper Pk/a Alexandra Perez Cid, attornies, and family
court. The school resource officer Harry J. Woltman returned the letter with
refrain from attempting to make any further contact with said student... do so
through proper legal channels” This is nine months from the order and both had not
seen or spoken to their grandchildren since the year before. The grandparents have
sent letters each year along with the Plaintiff, all have been returned to this day.
(exhibit 1 e, f, m, r, V-03444-45/04/10G-10N No. 18032 pl43 15-25, pl44. pl45, pl46
1-12, exhibit 44, 45, exhibit 46 )

34

ARGUMENT IV
IV.THE JHO ERRED IN NOT ADDRESSING THAT ATTORNEY JAY
KAPLAN, ILLEGALLY REPRESENTED ALEXANDRA PEREZ HALPER
F/K/A ALEXANDRA PEREZ CID WHILE REPRESENTING THE
APPELLANT’S LONGTIME PARTNER KATE WETHERBY. (1) THE COURT
ERRED IN NEGLECTING TO ADDRESS THE DISABILITY OF THE
APPELLANT (1) THE LACK OF ADVOCACY PROVIDED FOR THE
APPELLANT WHO SUFFERED NEUROLOGICAL DAMAGE
New York State rules of professional conduct place this relationship within the
conflict of interest category with loyalty and independent judgment essential
aspects of a lawyer’s relationship with a client. Attorney Jay Kaplan violated this by
jeopardizing the relationship between the Plaintiff and his business partner Kate
Wetherby who he represented between 2000-2010 (exhibit 25, exhibit 33, and
exhibit 34).
Plaintiff was aware of Mr. Kaplan's endeavors and presented to the court that Mr.
Kaplan represented Kate Weatherby, Plaintiff’s partner, making his participation
in the representation of Alexandra Perez Halper f/k/a Alexandra Perez Cid
impossible. Plaintiff had originally hired Alexandra Perez Halper f/k/a Alexandra
Perez Cid’s attorney Laura Schulman (Kingston/Sarasota) in 2004 to mediate the
divorce and custody. This forecasts the un-healthy stance, Alexandra Perez Halper
f/k/a Alexandra Perez Cid had taken to be contrary (exhibit 28). Attorney Jay
Kaplan knew Kate Wetherby well and the projects she worked on with the
Appellant including a film with Bard Student and Actress Chelsea Strifeneder, as
well as the exhibit “MOVEMENT of or... .the ...” for the Metropolitan Museum and
Fisher Center at Bard. Alexandra Perez Halper f/k/a Alexandra Perez Cid also
knew of the Plaintiff’s projects and spoke with Chelsea Strifeneder who portrayed
the nanny in an MTV pilot entitled “Three for the World” produced by Kate
Wetherby (exhibit 30, 31, 32).
(2009) RULE 1.7: CONFLICT OF INTEREST: CURRENT CLIENTS (1) the
representation will involve the lawyer in representing differing interests; or (2)
there is a significant risk that the lawyer’s professional judgment on behalf of a
client will be adversely affected by the lawyer’s own financial, business, property or
other personal interests. A lawyer may represent a client if: the representation does
not involve the assertion of a claim by one client against another client and each
affected client gives informed consent, confirmed in writing.
35

Identifying Conflicts of Interest [6] The duty to avoid the representation of differing
interests prohibits, among other things, undertaking representation adverse to a
current client without that client’s informed consent. For example, absent consent, a
lawyer may not advocate in one matter against another client that the lawyer
represents in some other matter, even when the matters are wholly unrelated. This
includes slander/libel/perjury on record.
Ephie Tratoras Kahais was the second law guardian for both children, remaining
for 7 years. As Gilda Riccardi expresses in the original transcript dated December
27, 2004 (p68) the law guardian has spoken to Alexandra Perez Halper f/k/a
Alexandra Perez Cid “ ... dad (Appellant) was an amazing father and would be
comfortable recommending custody to dad ... visits as agreed upon together”. The
Plaintiffs position was to be amicable and ensure consistency in the children's lives.
Upon the entrance of Ms.Tratoras Kahais the children seemed to be a secondary
priority with Alexandra Perez Halper f/k/a Alexandra Perez Cid as the central focus
(exhibit 40).
This representation by Attorney Effie Tratoras Kahais was troubled at best with
little time spent with the children and most of the time spent with Alexandra Perez
Halper f/k/a Alexandra Perez Cid, the children who regularly requested consistency
in their life, activities, time with each parent, family, and friends (exhibit 1, v and w,
exhibit 4). The antithesis of what was taking place in the judicial confusion that
proceeded 2002-2013.
The children were removed from Mountain Laurel Waldorf School in New Paltz
where both children were established and excelled. This was due in fact to
Alexandra Perez Halper f/k/a Alexandra Perez Cid not supporting her portion of the
children's established lifestyle. School payments unpaid for several years after
agreeing to help with the tuition cost (exhibit 11, and exhibit 1 [11]. a-d), upon
entering the public school system required the New Paltz reading clinic a more
traditional method of teaching to help with their assimilation. That was interrupted
again by Alexandra Perez Halper f/k/a Alexandra Perez Cid who did not take the
children during her custodial time, in court the Law Guardian was pivotal in this
first major disruption to the familys’ accustomed lifestyle. The Law Guardian's role
is to assure that the Court hears an unbiased view of what is the child's desire and
what is in the child's best interest, a view unbiased by personal agenda. -Attorney
Michael P. Friedman, Delmar NY (exhibit 43 and exhibit 48 p3).

36

In the transcript dated December 27, 2004, Alexandra Perez Halper f/k/a Alexandra
Perez Cid states “ ... no contact from Plaintiff regarding the reading clinic in New
Paltz NY ...” yet on p76 Alexandra Perez Halper f/k/a Alexandra Perez Cid claimed
she knew about the reading clinic since May 2004. It began in June.
The burden of payment to date was left on the Plaintiff who paid the sum of
$28,000. To the school for Alexandra Perez Halper f/k/a Alexandra Perez Cid’s half
of the tuition. On pl27 of this same transcript the director of the Waldorf school in
New Paltz is told by Alexandra Perez Halper f/k/a Alexandra Perez Cid she will be
responsible for half the tuition. To date it has never been paid. On p76, 77 under
oath Alexandra Perez Halper f/k/a Alexandra Perez Cid claimed she understood Zo
the child had a reading disability but she removed the child from the school directed
reading, after forcing the child into the new education environment. Though
Plaintiff presented this to the court as the intentional destabilization of the children
and Plaintiffs established lifestyle by Alexandra Perez Halper f/k/a Alexandra
Perez Cid. On page 138 of the same transcript Alexandra Perez Halper f/k/a
Alexandra Perez Cid claims the school would not take the tuition money but again
on pl27 the director of the school is told Alexandra Perez Halper f/k/a Alexandra
Perez Cid will pay her part of the tuition.
Alexandra Perez Halper f/k/a Alexandra Perez Cid has repeatedly interfered with
Plaintiff's ability to secure necessary medical treatment for the children. On a
number of occasions, has contacted the children’s school and falsely changed the
children’s primary mailing address despite the fact Plaintiff had primary physical
custody (exhibit 1 d and e)
Despite all the interruptions for many years Appellant never interrupted
communication between the children and Alexandra Perez Halper f/k/a Alexandra
Perez Cid as she stated in her own words in the December 27, 2006 transcript pl36
“ ... receiving phone calls from both the cell phone of the Plaintiff and Susan
Holland their math tutor.
The court referred therapist Jenny Bates LCSW worked with the children since
2006, recommended children remain in a stable household while Alexandra Perez
Halper f/k/a Alexandra Perez Cid and Plaintiff switched off custodial times. This
was unacceptable to Alexandra Perez Halper f/k/a Alexandra Perez Cid. Plaintiff
then suggested a private school where the children would stay overnight while
Alexandra Perez Halper f/k/a Alexandra Perez Cid and Plaintiff would visit the
children during their custodial times. Frustrated by the lack of a compromise or
37

#

solution Plaintiff began to copy Robert Halper (Rich Halper, Mr. Ace) at the request
of Alexandra Perez Halper f/k/a Alexandra Perez Cid because he was handling all
her decisions (exhibit 8).
Alexandra Perez Halper f/k/a Alexandra Perez Cid was allowed to disrupt the
established support network and therapist referred by the court and then switched
by the court and law guardian. This is the erratic behaviour Plaintiff is trying to
stabilize and is pointed out by Judge Christopher Cahill when he ruled Alexandra
Perez Halper f/k/a Alexandra Perez Cid was absent or erratic for a course of two
years. Alexandra Perez Halper f/k/a Alexandra Perez Cid on line 72 begins the
admission to the active caregiving of Plaintiff in (pg 72 line 24) on page 89
admitting to her erratic disruptive coming and going Plaintiff was looking to
eliminate with a structured schedule (exhibit 8, exhibit 13 and exhibit 13b).
Structure is the Plaintiff goal, many child psychologists and educators
(Montessori/Steiner) acknowledge as essential to developing minds. The transcript
continues with the interruption of the childrens and Plaintiff's education by
Alexandra Perez Halper f/k/a Alexandra Perez Cid when they were with her this
included participating in the religious sacrament at Sacred Heart in Esopus.

#

i
I

Alexandra Perez Halper f/k/a Alexandra Perez Cid in the transcript dating
December 27, 2006 p33 line 24 “Plaintiff agreed to picking up the children on
Saturday instead of Friday and increased visitation time to Wednesdays without a
court order”, then on page 6 of the same transcript states firmly “Plaintiff keeps her
from the children”. The major disruptions having begun to affect the children had
undermined the psychological stability of them as well as the Plaintiff, the court
erred during the many misrepresentations, left uninvestigated as to what was
actually transpiring. On p7 line 3 of the December 27, 2006 transcript Alexandra
Perez Halper f/k/a Alexandra Perez Cid states again she was not supporting the
children financially though Robert Halper, Rich Helper, Mr. Ace was supporting her
and financing the myriad of court cases brought against the Plaintiff that clearly
wanted stability for the children and himself (exhibit 17 and exhibit 20).
On p47 Alexandra Perez Halper f/k/a Alexandra Perez Cid states she was not
paying the agreed upon mortgage responsibility that she had agreed to pay to cover
her portion of the children's tuition, credit card expenses, and her past college
tuition refinanced by the generosity of the Plaintiff when he secured the loan with
Ulster Savings bank. This loan was against the berry farm Plaintiff had purchased
outright with no mortgage, then proceeded to restore and build several buildings
38

himself including the home the children had always lived in (exhibit 11 and u:
exhibit 23 p!4 and exhibit 23b and exhibit 26, and exhibit 43).
On December 27 2004 Alexandra Perez Halper f/k/a Alexandra Perez Cid states
Plaintiff is an amazing father directly to the first law guardian, Gilda Richardi p68.
Alexandra Perez Halper f/k/a Alexandra Perez Cid then goes on to state on p71 that
Plaintiff lent her a vehicle to use and she amassed over $1000. Of parking tickets
again disrupting Plaintiff who became stranded when the vehicle was towed while
at work.
Plaintiff concerned for the stability during the week with homework being turned in
on time had employed Susan Holland who has a Masters degree in Math/English
and knew Alexandra Perez Halper f/k/a Alexandra Perez Cid. Asshole was scrolled
across the top of the child's home directed at the teacher, Plaintiff or Susan Holland,
a favorite word of Alexandra Perez Halper f/k/a Alexandra Perez Cid to call
Plaintiff, those helping the children, and Plaintiff's parents (exhibit 14).
On p 81 Alexandra Perez Halper f/k/a Alexandra Perez Cid complains Plaintiff
forces visitation after these four major disruptions to be exchanged at the tutors
home, due to the court's error of addressing Plaintiff’s uncomfortableness with the
idea of being alone with Alexandra Perez Halper f/k/a Alexandra Perez Cid. The
court’s irresponsible error to establish groundwork for the exchanges and the
stability of the children and Plaintiff causing both irreversible psychological
damage. The home of Susan Holland is adjacent to the Plaintiff’s home, and is the
attempt to alleviate in person contact as Plaintiff who has grown uncomfortable
with the outbursts from Alexandra Perez Halper f/k/a Alexandra Perez Cid in front
of the children.
On p83 there is the acknowledgement that from the beginning of June until the
beginning of November Alexandra Perez Halper f/k/a Alexandra Perez Cid chose to
not help out or see the children in November it was Apparent that drove the
children to see their mom. On p94 of December 27. 2006 transcript again Alexandra
Perez Halper frk/a Alexandra Perez Cid admits to agreeing to pay her share of the
mortgage Plaintiff has taken to pay off her debts and allow Alexandra Perez Halper
f/k/a Alexandra Perez Cid to begin a fresh unburdened start in New York City. What
Plaintiff did not know was Attorney Michael P. Freidman had secured the
promissory note from Alexandra Perez Halper f/k/a Alexandra Perez Cid’s boyfriend
Robert Halper, Rich Halper, (Mr. Ace) (exhibit 1 s, t, and exhibit 20, 43, 44, 47, and
exhibit 48)
39

Alexandra Perez Halper f/k/a Alexandra Perez Cid states the home the children live
in with their father is too severe to live in in the winter, but the children's school
attendance records assure that is not the case. Alexandra Perez Halper f/k/a
Alexandra Perez Cid is claiming to live with her parents on 157th st in Spanish
Harlem, a more compromising location than Ulster Park for the children. Yet
Plaintiff transports children often to spend time with not only Alexandra Perez
Halper f/k/a Alexandra Perez Cid but her parents at this location. Again a lifestyle
they are accustomed to visiting and then returning home (exhibit 26).
On plOO of the December 27, 2006 transcript Alexandra Perez Halper f/k/a
Alexandra Perez Cid claims to be working as a babysitter making $10. On pl36 of
this same transcript Alexandra Perez Halper f/k/a Alexandra Perez Cid admits to
receiving daily phone calls from the children when in the care of Appellant or tutor.
Alexandra Perez Halper f/k/a Alexandra Perez Cid on pl08 of the December 27,
2006 transcript, claims to have “... worked in Ulster County as a photographer and
jewelry designer in a .com Plaintiff financed
But she made no real money from
these endeavors for 2-3 years. This is why she moved leaving the children with their
father (exhibit 21, exhibit 32, 33, 34, and exhibit 48 p2).
The court erred in protecting the children and Plaintiff from Alexandra Perez
Halper f/k/a Alexandra Perez Cid who misled the court with the fraudulent
statement Plaintiff did not work though his tax return in transcript dated
December 27, 2006 pg 117 line 17 states he made $50,000. It was Alexandra Perez
Halper f/k/a Alexandra Perez Cid who made little to no money but had no problem
spending money. On pll7 of this transcript Alexandra Perez Halper f/k/a Alexandra
Perez Cid claims she decided with the Appellant to move to New York permanently,
but on pll8 Alexandra Perez Halper f/k/a Alexandra Perez Cid states they never
spoke of moving.
The second appointed law guardian overlooked the necessity to keep the children
and Plaintiff psychologically as well as physically safe and stable in the established
lifestyle. The court erred in allowing misinformation and perjury by Alexandra
Perez Halper f/k/a Alexandra Perez Cid and her witnesses which includes the
tutor/neighbor Susan Holland, Paige VanNorstrand the housekeeper caregiver and
friend of Alexandra Perez Halper f/k/a Alexandra Perez Cid. Andrew Smith who
was attempting to purchase the barn from the Appellant to satisfy the long
standing debt most of which was accumulated by Alexandra Perez Halper f/k/a
Alexandra Perez Cid (exhibit 23 pl4 1-12, exhibit 26, 47, and 48).
40

The JHO erred in not allowing Plaintiff's attorney Daniel Gartenstein impeach the
testimonies of these witnesses or Alexandra Perez Halper f/k/a Alexandra Perez
Cid, the JHO erred in not addressing the fact that the law guardian Effie Tratoras
Kahais never spoke to Plaintiff regarding the concerns over the stress caused by
the litigation. The children’s accustomed lifestyle had been destabilized by court
since early childhood, via 6 therapists by the ages of 12 and 13. A most unhealthy
environment to grow up in. In fact the court order victim shames the children and
the disabled Plaintiff with no evidence or reason (exhibit, p!6, exhibit 43, 48 pi) .
The stress of single parenting is well known, the stress of dealing with contention
and utter contempt daily for years is inhumane and exactly what the JHO did
(exhibit 1 k-m, exhibit 23 pl4 lines 9-11, exhibit 23b, and exhibit 48 p3 )
The court erred in not correctly identifying children's ability to cope or maintain
consistent mental health with the therapist Jenny Bates LCSW who they referred
to the family in 2006. In fact and transcript expresses more destabilization caused
by 6 additional therapists between 2006-2013. The law guardian also neglected the
children's communication in this matter with the various courts. The children on
many occasions expressed their desires to remain with Jenny Bates LCSW, the first
court referred therapist and to maintain activities and events already well
established (exhibit 13 and exhibit 1 w and exhibit 23 p24 lines 20-25, p 25 lines
1-16, and exhibit 48p2-3).
The JHO erred in allowing the'disruptions, changing educational institutions, and
erratic behaviour by Alexandra Perez Halper f/k/a Alexandra Perez Cid. The many
(6) unfamiliar therapists appointed, medical information to become inaccurate, CPS
reports and evidence missing, the violated restraining orders all proving too much
not only for the children but for the Plaintiff (exhibit 23 p23).
In the fall of 2011 just before the trial was to begin with Daniel K. Lalor, in Ulster
County Family Court, the Plaintiff suffered a head injury when the court was
presented with this. It committed a procedural defect by not halting the trial until
after the medical results were complete. This was not insured by the JHO who
allowed the trial to continue, aware of transcript inconsistencies, missing evidence,
abuse of process, malicious prosecution, and lack of mechanism for the children to
access their father, the injured Plaintiff. A procedural defect was then presented to
the Appellate Court in 2013. The courts erred again in this incomplete rejection of

41

an appeal of a case riddled with inconsistencies and procedural defects (exhibit lc
47, and exhibit 48 p2-3).
Living within years of interruption and dangers created maliciously by Alexandra
Perez Halper f/k/a Alexandra Perez Cid, Robert Halper (Rich Halper, Mr. Ace)
including damaging personal property, child abuse, violations of restraining orders
as well as support, all presented in Court and left unaddressed (exhibit 11 a-q). The
JHO found the change of circumstance presented by the very individuals that
caused the psychological degradation of both children and father due to the long
standing extreme, physical, emotional, and psychological conduct used to
misrepresent the facts. While ignoring the head injury that was observed and
documented (exhibit lc, 43, and exhibit 48 p4).
Retrograde Post Traumatic Amnesia brought on by the continued stress of this
trying case, the worry over the effects on his children, and the desire to find
acceptable mediation. The head injury amplified these stressors, intentionally
manipulated by Alexandra Perez Halper Pk/a Alexandra Perez Cid and those who
misled the JHO and both courts responsible for protecting the minor children and
ultimately the disabled Plaintiff (exhibit 3, 4, 7, 9, 11, 12, 13, 14, 15, 27 and exhibit
23 pl6 and exhibit 23b).
The JHO erred in permitting the Attorney Jay Kaplan openly slandered the
Plaintiff and the established parenting techniques of Montessori/Steiner Waldorf
education on record. Violating Plaintiffs civil liberties to choose the best education
for his children, as well as in completing his degree, and the 20 year career of the
Plaintiff. This in appropriate ruling directly caused cognizant dissonance in not
only the children but in the disabled Plaintiff (Exhibits 29, 30, 31, 32, 33, 34, 43,
and exhibit 48 p3-4).

42

ARGUMENT V

V. THE JHO ERRED IN THE NEGLECT OF ADDRESSING APPELLANTS
RECENT HEAD INJURY, (1) THE CONFUSED INCOMPLETE ABNORMAL
MECHANISM OF VISITATION BETWEEN CHILD - DISABLED PARENT
The JHO erred in overlooking the evidence, perjury of witnesses, and alarming
pathology of this case to promote his own slanted bias agenda of misogyny.
The Plaintiff was in fact a good father who was doing the best he could with the
difficult situation post head injury, on record the JHO allows Attorney Jay Kaplan
to commit perjury, while stating Plaintiff is a fraud. When the evidence has been
provided with Bard Professor Arthur Burrows that Plaintiff assists the professor on
the development of a frequency curriculum, joining two disciplines. Then again
when Bard Student actress Hannah Slone-Barton testifies, Professor Rufus Muller
of Bard also participates in the film “effigy with Plaintiff, and then again when
Bard registrar Peter Gatsby testified impeaching the testimony of Bard head of
security Ken Cooper. These misogynistic and misandrist biases by the JHO is
evident in the trial extended over 10 days, the lack of sensitivity to the fact that the
children and Appellant had been traumatized, as well as the New Paltz community
where the children attended school. Jay Kaplan’s choice to represent pedophile
Thomas Warring (exhibit 28 and exhibit 29).
The attorney Jay Kaplan berates and criticizes the disabled Plaintiff in a manner of
slandering punishable in court, threatening the validity of his own license on
record. The JHO erred by allowing the attorney to knowingly commit conflict of
interest with Plaintiff's longtime partner, perjury when fact, evidence, and
witnesses discredit him, as well as his clients claims on record for a decade. The
court's error gravely continues (exhibit 28). Produced an order on testimony by
witnesses that abused both children and Plaintiff, admitted again on record by
Alexandra Perez Halper f/k/a Alexandra Perez Cid, Susan Holland, Paige Van
Norstrand, and Andrew Smith. All of whom claimed to have intimate relations with
the disabled Appellant that addressed each with distancing himself from their
advances (exhibit 7 and exhibit 43, 48 p2).
The JHO continues in his order to victimize the disabled Plaintiff, who seeks to
protect his children from the predatory behaviours of the above mentioned. To
receive not only a harsh reprimand but the erasing of his life's work including, 20
43

years of media work, PSA’s on trafficked children, the restoration of the Hellbrooke
berry farm, The building of the Union Center for Cultural and Environmental
Research, the theft of his artwork placed in evidence, the theft of his medical
records, and the lack of mechanism of supervised visitation with his two children,
the children he raised as a single parent consistently from birth (exhibit 18, 19, 26,
29, 30, 31, 32, 33, 43, and exhibit 48 p3).
This caused cognizant dissonance, PTSD, and exacerbated traumatic brain injury. It
is yet to be determined the full effects of this malicious ruling on two of the children
Ulster County Family Court was created to protect. Plaintiff answered Attorney
Jay Kaplans questions, sitting through the attorney’s fraudulent malicious
testimony for 10 days. Knowing the attorney was the antithesis of the Plaintiff s
body of work (exhibit 3 and exhibit 27).
The court erred by ‘‘criticizing the father” (disabled Plaintiff) who for the decade
previously was the main support mechanism for the children, their lifestyle, and
their health. Had the support of seven Ulster County professionals ranging from
child psychologists, marriage counselors, psychiatrists, child therapists yet the JHO
found the most minute statement by Dr. Elizabeth Mundt, who was last to the
decade (ten year) court case that alluded to the judicial system of Ulster County.
The JHO ignores child psychologist Dr. Ann Mundt. Her professional
recommendation “ ... to make joint custody work ...” Ignored by the JHO in favor of
an order that amounts to a biased misogynistic rant (exhibit 23 p8, 16, 43, and
exhibit 48 pi).
The court erred in not advocating for the children and the disabled Plaintiff . The
County erred in allowing the out of control meanderings of a retired, past his ability,
JHO.

44

ARGUMENT VI
VI. THE JHO ERRED BY REFUSING TO ACKNOWLEDGE
DISCREPANCIES IN TRANSCRIPTS, MISSING EVIDENCE, THE
PERJURY AND DOMESTIC VIOLENCE OF ALEXANDRA PEREZ HALPER
F/K/A ALEXANDRA PEREZ CID AND HER WITNESSES

VI. Dr Munts' report, ordered by JHO found that testing suggested that Patrick di
Santo (Plaintiff) "... was underreporting psychopathology and deliberately trying to
avoid unusual or other than socially acceptable responses...” post head injury,
(exhibit 3, exhibit 7, exhibit 23 p8 line 19-23, exhibit 27, V-3444-0410GHIJK,
V-3445-0410GHIJK, V-3444-04/11 LM, V-3444-04/11 LM, V-3445-04/11 LM,
V-3444-04/11 N, V-3445-04/11 N Family File No. 18032 p8 line20, exhibit 43, and
exhibit 44, 45,) this consistent with post head injury victims that are working to “feel
normal”. The quote within this order directs one to observe the JHO obsessed with
his own misogynistic and misandrist agenda and the agenda of Alexandra Perez
Halper f/k/a Alexandra Perez Cid rather than the health and well-being of the
family, children or Plaintiff, exposing his utter lack of sophistication and blatant
ignorance in the world of psychology and family dynamics (exhibit lc and exhibit
17).
The Plaintiff had tried numerous times to mediate an acceptable arrangement
between himself and Alexandra Perez Halper f/k/a Alexandra Perez Cid from 2002
by hiring her attorney Laura Shulman, Kingston NY./Sarasota FL., who was
originally hired by Alexandra Perez Halper f/k/a Alexandra Perez Cid. Plaintiff
obtained a waiver for the representation, he then consulted the court as to an
acceptable therapist being concerned for his children, he then arranged for
Alexandra Perez Halper f/k/a Alexandra Perez Cid’s bills to be paid to make a new
start for herself. The Plaintiff was met with one complication after another as the
record clearly identifies. With no burden of responsibility placed upon Alexandra
Perez Halper f/k/a Alexandra Perez Cid financially, psychologically, or behaviorally
(exhibit 7, exhibit 17).
By 2008 the children had been removed from their accustomed lifestyle to
accommodate a disturbingly erratic behaviour. Without actual advocacy the children
had no voice in the court, were removed from the education institutes they excelled
in, where accosted and forced to address their abuser weekly. Yet the JHO finds it

45

appropriate to criticize the father, the Plaintiff who is trying to provide stability
within the erraticness, greed, and selfishness (exhibit 1 c-e .
Criticizing the mother is looked down upon in family court, but criticizing the father
is appropriate? This was pointed out on record and presented to the court by
Lawrence R. Shelton, Kenneth Drew Gillian, Dr. Cloud Schleuderer, Jenny Bates
LCSW, Dr. Emil Pinn, Dr. Robert Houseman, and the list continues with Professor
Arthur Burrows, Director Mark Gasper, and Carlolina Morelo. All who identified
the pre-injury Plaintiff as looking out for the best interest of the children as well as
Alexandra Perez Halper f/k/a Alexandra Perez Cid despite her derogatory remarks,
unwilling to compromise, and maliciousness which includes insisting the children
were not the Plaintiff’s. Despite these allegations Plaintiff did not present this to
the children or impeded their time with their mother, Plaintiff did insist a
chaperone was present at all time(s) when interactions with Alexandra Perez
Halper f/k/a Alexandra Perez Cid was necessary. As pointed out by Dr. Schleuder “ ..
mom is considerably more angry than dad. Dad gets angry and speaks out, but then
cools off. Mom stays angry and becomes underhanded ...” or under oath within her
own petition Alexandra Perez Halper f/k/a Alexandra Perez Cid states in
paragraphs “ggg” and “hhh” “ ... extensive display of derogatory remarks that
respondent (Alexandra Perez Halper f/k/a Alexandra Perez Cid ) makes about the
Plaintiff, both to the children, to the children’s providers, and to the members of the
community including the parents of the children’s friends ....” (exhibit 1 j-n, exhibit
17, exhibit 23 pl7 lines 10-19 and exhibit 23b, and exhibit 43)

46

»

CONCLUSION
This appeal was constructed with the aid of the University of Kansas, psyc law,
Minds Matter Advocacy (exhibit lc), Cenacle Christian Legal Services, Sarasota
Legal Aid for the disabled, and the help of Attorney Ted Stein, Attorney Michael P.
Friedman, Attorney Lawrence R. Shelton, Attorney Colleen Glen, Attorney M. Jim
Jenkins. The Plaintiff is pro se in an attempt to understand and convey the levity
and utter disregard for facts by the Family Court of Ulster County case order A.D.
NO. 516688.
The Plaintiff is seeking the dismissal of family court ruling by Judicial Hearing
Officer Keneth Laylor, a.d. no. 516688 on the grounds of: procedural defect, judicial
bias, missing evidence, inaccurate transcripts, domestic violence, anti-christian
motivations, violation of civil liberties, medical documentation theft, intellectual
property theft, art theft, stalking/slander, abuse of process, malicious prosecution,
and frivolous law.
One must understand the court erred by deviating from standard family court
procedural protocol and disrupted the established nurturing lifestyle Plaintiff had
created for his children, and was then replaced by impossible psychological pain and
anxiety. The disabled Plaintiff followed the court guidelines firmly establishing his
respect for law and the judicial system in the decade long case. When KPD and
authorities told him “ ... he would never see his children again ...” at the public
school they attended after the trial in 2013, with no mechanism to see his children,
Plaintiff wrote to multiple agencies, advocates, over two hundred and seventy in
total. This included the seven therapists that saw the children over the course of the
trial, from 3/2003 -10/2013 he was separated from the children he raised since birth
for no reason other than the JHO’s biased order.
There was no established form of mechanism in place making the children and
Plaintiff victims for the initial eight months of the order. During this time the
children were told untruths and fabrications with the full support of Ulster County,
Family Court, and the biased order written by Judicial Hearing Officer Keneth
Laylor, a.d. no. 51668. The Appellate court ruled within the first year, the subject
was moot due to the time frame of 6 months that had passed. Access to the children
was obstructed and Appellant who is now the Plaintiff who suffered from a head
injury, traumatic brain injury and major depressive disorder, fell into post
traumatic amnesia and cognizant dissonance, as did both children, placing him at
psychological risk. This is not addressing the effects this court error had on the
47

¥
children (exhibit lc, and exhibit 3, and exhibit 23 p 24 lines 20-25 and exhibit 23b,
and exhibit 27).
Plaintiff informed the state bar association, judicial review, officials, board of ethics
of the error, friends and family. All primed and framed by the judgment, confirmed
he had done something because of the biased ruling by Judicial Hearing Officer
Keneth Laylor, a.d. no. 51668
In fact nurturing the relationship between mother and children for the previous
decade, cost his own relationship with his children, as perjury slander, physical,
and sexual abuse were endured at the hands of those trusted and highly
recommended from Bard college and the Ulster County Family Court.
There is no greater proof of the Plaintiffs integrity, noble qualities, and compassion.
Then the empathy in what is being requested. To set aside the procedural defect,
malicious prosecution, abuse of process, that has left the children and the Plaintiff,
their father forever damaged by the very court constructed to protect families.
Ulster County Family Court.
What has been lost by the children and Plaintiff aside from 20 years and the safety
and security of the children father relationship, is the respect for the court put in
place to protect families in this biased order V 3444-04/11, V 3445-04/11 File 18032 I
a-c (exhibit 11 a-c, exhibit lc, 43, 44, 45, and exhibit 48)

Dated: March 2021
Overland Park, Kansas US.

Patrick di Santo
Plaintiff

In association with:
The University of Kansas,
Cenacle Christian Legal Services,
Sarasota Legal Aid for the Disabled:
Attorney Michael P. Freidman,
Attorney Ted Stein,
Attorney Lawrence R. Shelton
Attorney Colleen Glen,
Attorney M. James Jenkins,
and Minds Matter LLC.

48

REASONS FOR GRANTING THE PETITION

This case of procedural deficit and violation of Civil Liberties has been documented in order to address the policies of Family and Divorce Court and how they affect
all US families. The policy and procedure of family court and divorce court(s) are in need of review and amendment as it is currently fractured and dangerous.
Plagued with: out of date psychological obstacles and loopholes that impede healthy psychological effects of the family, the iaw(s) are in place to protect. Social
Role Theory outlines modem family semantics and ensures Misogyny and Misandry are not present when decisions are being made to the health and wellbeing of
individuals under this jurisdiction.
BRIEF
In 2009 Patrick di Santo from now on referred to as Plaintiff and co-writer girlfriend Carolina Morelo, began to arrange the release of children with an incredible tale
of human trafficking discovered at a women’s shelter in Manhattan, NY. In 2011, the Plaintiff suffered a head injury and over the next 22 months Ulster county
allowed treatment with experimental drugs but refused to provide psychological and head injury advocacy post injury. The result was separation from his children
with no evidence they ever suffered in his care (Stein, 2013). Much evidence questioned the alleged behavior of the children's mother and her boyfriend. Much like
those allegedly abused by Jeff Epstein and Harvey Weinstein, this disabled father with a Traumatic Brain Injury (TBI) was molested, without consent as revealed in
court transcripts by the adults recommended to assist in recovery.
The court(s) refuse to address this when attorneys brought up the discrepancies of misogyny and misandry of the Ulster County judicial system. No investigation
was brought against those individuals that abused him, the children, or their perjured testimonies. The children were placed in the custody of their mother and her
new boyfriend, who made no formal court appearance to clarify his intentions or allegations made directly to attorneys by those that abused the Plaintiff, the disabled
biological father.
The Wall Street investor boyfriend of their mother did allegedly receive private meetings with the presiding Judge(s) and counsel post generous donations to
campaign funds. The Plaintiff has not had contact with his children since the court's refusal to address the violation of the Plaintiff’s constitutional civil liberties and
civil right(s) of a parent to the companionship of their children. Particularly since he was the primary caregiver consistently from birth and rehabilitation post head
injury requires close contact with loved ones. He was removed as were the children from their established lifestyle of 13 years due to the gluttonous greed by way of
campaign funding and collusion at the cost of the safety and well-being of the minor children and their disabled father.

,</t?

Signing of this motion in support of, a true and honest finding to be presented to the \
- DISTRICT COURT OF THE UNITED STATES will give insight into
why this was allowed by the State of New York in our country of the UNITED STATES and prevent this from happening to any other of our families. In addition, it
will allow the Children and the Plaintiff to begin to reconstruct those many years they have been separated due to the manipulation of policy and ruling of this order,
for the Plaintiff it will allow the healing from cognizant dissonance of untruths propagated to harm and destroy this family of the United States.

“Social Role Theory is a social psychological theory that pertains to gender similarities and differences in social behavior. Its key principle is
that similarities and differences arise primarily from distribution of gender into social roles within society". -UCCER

CONCLUSION

The petition for a writ of

Respectfully submitted,
PATRICK OISANTO

Date:

JUNE 2021

should be granted.

